                               NATIONAL SCIENCE FOUNDATlON
                                      4201 Wilson Boulevard
                                    ARLINGTON. VIRGINIA 22230




     OFFICE OF
 INSPECTOR GENERAL



 MEMORANDUM


 Date:          August 4,2009

 To:            Mary F. Santonastasso
                Division Director, Division of Institution and Award Support
                (BFMDIAS)

                Karen Tiplady
                Division Director, Division of Grants and Agreements (BFA/DGA)

 From:          Michael R. Kuklok
                Senior Audit Manager

 Subject:      NSF OIG Report Number 09- 1-012
               Audit of Effort Reporting System, Arizona State University

        Attached is the final report prepared by WithumSmith+Brown, an independent public
accounting firm, on the audit of the payroll distribution and effort reporting system used by
Arizona State University (ASU) to support salary and wages charged to NSF grants. The
University's comments to the draft report have been summarized after the recommendations for
each audit finding and the auditor's response has been provided to these comments. The full text
of the University's comments is included as Appendix B to the audit report.

          The audit found that the University generally has a well established Federal grants
 management program. However, because the University did not place sufficient emphasis on
 effort reporting, ASU needs to improve its internal controls to ensure proper implementation and
 oversight of its labor effort reporting system. Without appropriate controls for certifying labor
 effort reports, ASU has less assurance that the certifications are reliable and reasonably support
salaries and wages charged to NSF's sponsored projects. In addition, weak internal controls lead
to NSF paying $29,700 in excessive salaries, fringe benefits and overhead due to labor effort
charged to NSF grants that did not directly benefit those grants and for allocating employee's
annual base salary at a rate higher than supported in the documentation. The University also had
not conducted a comprehensive independent internal evaluation of the effort reporting system, as
required by OMB Circular A-2 1. The significant nature of these control weaknesses raises
concerns about the reasonableness and reliability of the remaining $11.7 million of FY 2007
labor charges to NSF grants.
         We consider ASU's internal control procedural weaknesses identified in the audit
 findings to be significant. Accordingly, we request that your office work with the University and
 the cognizant audit agency, the Department of Health and Human Services (DHHS), to develop a
 written Corrective Action Plan detailing specific actions taken andlor planned to address each
 audit recommendation. Milestone dates should be provided for corrective actions not yet
 completed.

        To help ensure the recommendations are resolved within six months of issuance of the
audit report pursuant to Office of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with DHHS, determines
that ASU has adequately addressed the recommendation and proposed corrective actions have
been satisfactorily implemented. Please note that we have sent a copy of the audit report under
separate cover to Jon D. Crowder of DHHS-OIG.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

       Provided a detailed audit program for the agreed upon procedures review and ensured
       WithurnSmith+Brown7sapproach and planning for the audit was appropriate;
       Evaluated the qualifications and independence of the auditors;
       Monitored progress of the audit at key points by accompanying WithumSmith+Brown
       auditors onsite at the grantee;
       Coordinated periodic meetings with WithumSmith+Brown and OIG management to
       discuss audit progress, findings, and recommendations;
       Reviewed the audit report, prepared by WithurnSmith+Brown, to ensure compliance with
       Generally Accepted Government Auditing Standards and the NSF Audit Program; and
       Coordinated issuance of the audit report.

        WithurnSrnith+Brown is responsible for the attached audit report on ASU's payroll
distribution and effort reporting system and the conclusions expressed in the audit report. The
NSF OIG does not express an opinion on the audit report's conclusions.

       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please feel fiee to call me at 703-292-4975 or Jerel Silver at 703-292-8461.

Enclosure

cc:    Gilbert Tran, Technical Manager, Office of Management and Budget
       Thomas Cooley, Director and Chef Financial Officer, BFNOAD
       Alexander Wynnyk, Branch Chief, BFNDIAS
       Charles Zeigler, Special Assistant, BFADIA
      Audit of Effort
     Reporting System

 Arizona State University
     Tempe, Arizona

National Science Foundation
Office of Inspector General

     August 3,2009
    NSF OIG 09-1-012
WithurnSrnith,Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910 USA
301.585.7990        . fax 301.585.7975
www.withum.com                                 Ms. Deborah H. Cureton
                                               Associate lnspector General for Audit
Additional Offices in New Jersey
New YO* and Pennsylvania                       Office of Inspector General
                                               National Science Foundation
                                               4201 Wilson Boulevard
                                               Arlington, VA 22230

                                               Dear Ms. Cureton:

                                               WithumSmith+Brown is pleased to submit this performance audit report of the
                                               Effort Reporting System at Arizona State University (ASU). This audit is one in a
                                               series of Office of lnspector General (OIG) reviews of the labor effort distribution
                                               systems being conducted at NSF's top-funded universities. The audit was
                                               performed in accordance with Government Auditing Standards (GAS).

                                               Our audit objectives were to: (a) evaluate whether ASU's internal controls are
                                               adequate to properly manage, account for, monitor, and report salary and wage
                                               costs on NSF grants in accordance with the U.S. Office of Management and
                                               Budget (OMB) and NSF grant requirements; and, (b) determine if salaries and
                                               wages charged to NSF awards are allowable, allocable, and reasonable in
                                               accordance with Federal cost principles and NSF award terms and conditions.

                                               We appreciate the opportunity to assist the Office of lnspector General by
                                               providing an audit of the ASU's effort reporting system.




                                               August 3, 2009
This page redacted in entirety
                                  Executive Summary
         This audit report provides the results of our review of the effort reporting system
 used by the Arizona State University (ASU) to support salaries and wages charged to the
 National Science Foundation (NSF) awards. In fiscal year 2007, ASU's direct Federal
 grant expenditures totaled $218.5 million, of which $37.6 million, or 17 percent, were for
 NSF awards. Of the total NSF expenditures, $12.3 million was for salaries and wages.
 This audit is one of a series of Office of Inspector General (OIG) reviews of the labor
 effort distribution systems being conducted at NSF's top-funded universities to assess the
 adequacy of internal controls to ensure salary and wage costs claimed on NSF grants are
 properly managed, accounted for, and monitored.

         Our review disclosed that ASU generally has a well established Federal grants
 management program. However, the audit disclosed several internal control weaknesses
 that ASU needs to correct to ensure proper implementation and oversight of its effort
 reporting system. Om review of 30 sampled employees, with total FY 2007 NSF salary
 charges of $640,841, found that the effort reporting system did not ensure salaries and
 wages charged to NSF awards reasonably reflected actual work performed on the
 sponsored projects. Specifically, the audit disclosed:

       Fifty of 67 employee Activity Distribution Reports (ADR), used to record the
       allocation of an employee's labor effort to sponsored projects and other activities,
       were either not certified w i t h the University's established certification period or
       the certification date could not be dete~mined;

       Six ADRs from five of the sampled employees were inlproperly certified by four
       University officials who were not in a position to know whether the work was
       actually perfolmed as represented on the ADR;

       Four employees charged labor costs directly to NSF grants for work that did not
       directly benefit any of the NSF grants;

       Three employees did not have appointment letters or employment contracts that
       document an employee's annual base salary used for allocating salary charges to
       sponsored projects and other activities; and,

       Two employee's salaries were allocated to NSF using higher annual base salaries
       than the amount recorded on appointment letters or employment contracts.

       In addition, contrary to the U.S. Office of Management and Budget (OMB)
Circular A-21, the University had not performed a comprehensive independent internal
evaluation of its effort reporting system to ensure the system complied with Federal
requirements and was effective.

        These weaknesses occu~redbecause ASU did not place sufficient emphasis on
effort reporting. Specifically, ASU did not have adequate policies and procedures on
 effort reporting; require mandatory training for all personnel involved in effort reporting;
 and establish proper monitoring and oversight of its labor effort reporting system.

         As a result, NSF has less assurance that ASU labor effort reports are reliable in
reasonably supporting salaries and wages charged to sponsored projects. The significant
nature of these control weaknesses raises concerns about the reasonableness and
reliability of the remaining $1 1.7 million in FY 2007 labor charges to NSF grants and the
$40.6 million salary portion of ASU's other $180.9 million of Federal award
expenditures. Further, these weaknesses resulted in ASU overcharging NSF $29,700 for
6 of the 30 sampled employees for labor effort that did not directly benefit NSF grants
and for allocating employee's annual base salary at a rate higher than supported in the
documentation.

       Our recommendations were primarily directed toward enhancing the University's
labor effort reporting system by (i) updating and revising policies to fully co~llplywith
Federal regulations, (ii) providing employee training to ensure cognizant department and
academic staff fully understand their effort reporting responsibilities so that established
procedures are accurately and consistently implemented, and (iii) providing adequate
oversight of the effort reporting process. Finally, we recommended that ASU resolve the
$29,700 in questioned costs.

        A draft audit report requesting comments on the findings and recommendations
was issued to ASU. The University concurred with the findings and recommendations
and stated that they revised or plan to revise various policies and procedures,
strengthened e~nployeeclassroom and on-line training, improved the effort reporting
oversight functions, and implen1ented an electronic Effort Reporting Syste~llwith the
capability to track faculty effort committed to projects. The University also said they will
remove the questioned costs identified in the report from the NSF grants.

        ASU's responses, once implemented, should address our audit recon~me~ldations.
NSF should work with the cognizant audit agency and/or ASU to ensure the University
develops an acceptable corrective action plan to resolve each audit recommendation. We
have summarized ASU's responses and provided our comments after each
recommendation in the report. We also included ASU's response to our draft report in its
entirety as Appendix B.
                                                 Arizona State University

                                                       Table of Contents

EXECUTIVE SUMMARY ............................................................                      ...................................... i

INTRODUCTION

      Backgsound ......................................................................................................................... .1

      Objectives, Scope, and Methodology .................................................................................. 2

FINDINGS AND RECOMMENDATIONS

      1. Internal Controls Over the Effort Reporting System Need Improvenlent.. ............. ..5

      2. Additional Internal Control Weakness Needing Management Attention ..................... 18

APPENDICES

     Appendix A-Schedule of FY2007 Questioned Salaries and Wages ..................................20

     Appendix B-ASU's Comnleilts to Draft Audit Report ...................................................... 21


     ACRONYMS

     ADR                     Activity Distribution Report
     ASU                     Arizona State University
     DEA                     Department Effort Administrators
     NSF                     National Science Foundation
     OIG                     NSF Office of Inspector General
     OHR                     Office of Human Resources
     OMB                     U.S. Office of Management and Budget
     ORSPA                   Office of Research & Sponsored Projects Administration
     OVPREA                  Office of the Vice President for Research and Economic Affairs
     PI                      Principal Investigator
                                   INTRODUCTION

 BACKGROUND

         Approximately one-third of the National Science Foundation (NSF) award funds
 are provided for salaries and wages, amounting to about $1.3 billion annually at
 universities. Also, in recent years, there have been several civil settlements involving
 overcharges of labor costs to Federal grants, amounting to millions of dollars at several
 major universities, including some hnded by NSF. Because of these legal actions and
 the material amounts of labor costs paid fi-om NSF awards, the Office of Inspector
 General (OIG) is undertaking a series of reviews of the labor effort distribution systems
 at NSF's top-funded universities in order to assess the adequacy of internal controls to
 ensure salary and wage costs claimed on NSF grants are properly managed, accounted
 for, and monitored. This audit, involving Arizona State University (ASU), is one of
 several planned reviews of such labor effort distribution systems.

        ASU, established in 1885, is a public institution devoted to superior instiuction,
excellent student perfonnance, original research and outstanding public service and
economic development activities. The University is located in Tempe, Arizona and is a
federation of colleges, schools, departments and research institutes. In fiscal year 2007,
ASU had approxinlately 2,970 faculty members, 9,466 administrative and support staff,
5 1,311 undergraduates, and 13,083 graduate and professional students. Generally, ASU
faculty members are awarded nine-month academic year appointments, and thus dedicate
a majority of their effort to Federal sponsored research projects in the summer.

       In fiscal year 2007, ASU's direct Federal grant expenditures totaled
$218.5 million, of which $37.6 million, or 17 percent, was for NSF awards. Of the total
NSF expenditures, $12.3 million or 33 percent was for salaries and wages.

        The University's Office of Research and Sponsored Projects Administration
(ORSPA) is responsible for the management and oversight of Federal grant programs.
Piinlarily, ORSPA is tasked with both pre-award and post-award grant activities,
including ensuling ASU's compliance with Federal grant regulations and sponsoring
agency requirements. As such, ORSPA develops ASU policies and procedures for
Federal grants management and is charged with implementing appropriate training
programs and is responsible for financial administration and monitoring of active Federal
awards. Additionally, ORSPA is responsible for compiling and distributing ADRs to all
academic departments to provide for the certification of actual work effort devoted to
federally-sponsored projects. ORSPA also maintains the official file of ADRs.

        Within each academic department, senior grants administrative officials are
tasked with the management and oversight of sponsored projects to ensure compliance
with Federal and university policies and procedures. Such officials typically assist and
advise faculty members with the management of Federal grants. They are responsible for
ensuring that: awards and their budgets are created accurately in the University's
 financial system; award expenditures are monitored on a monthly basis; charges to
 Federal awards are appropriate; and responsible individuals confilm the reasonableness
 of employee labor effort on the ADRs. Principal Investigators (PI) have the primary
 responsibility for all aspects of the Federally-sponsored projects including approval of all
 charges and for ensuring that the research is conducted in accordance with the award
 terms and conditions.

 OBJECTIVES, SCOPE AND METHODOLOGY

         Audit Objectives. Our audit objectives were to: (a) evaluate whether ASU's
 inteinal controls are adequate to properly manage, account for, administer, monitor, and
 report salary and wage costs on NSF grants in accordance with the OMB and NSF grant
 requirements and (b) determine if salaries and wages charged to NSF awards are
 allowable, allocable, and reasonable in accordance with Federal cost principles and NSF
 award telms and conditions.

          Scope and Methodology. The audit focused on ASU's payroll distribution and
 effolt reporting system and, accordingly, we reviewed internal controls for ensusing that
 labor costs charged to NSF were (i) actually incurred; (ii) benefited NSF awards; (iii)
 were accurately and timely recorded; and (iv) were for allowable and allocable-type
 activities, as required by Federal and NSF grant requirements. In addition, we evaluated
 whether the level of PI effort pledged in grant proposal and award docunlents was
 actually contributed by the faculty member to accon~plishaward objectives.

        To address each of these control objectives, NSF-OIG engaged a statistician to
provide assistance in selecting a statistical sample of employee salary records for testing.
The use of statistical tools and metl~odologyis to enable the NSF-OIG to project the audit
results to the entire population of universities included in its planned reviews of payroll
distribution and effolt reporting systems nationwide. However, due to the small
statistical sample size of 30 employees tested, we are not able to make any projections to
the total ASU population of labor costs charged to NSF grants. Specifically, the FY 2007
salaries and wages costs for the 30 sample en~ployeestested amounted to $640,841 and
were supported by 67 effort reports. The statistical sample was derived from a total
population of 1,027 employees, who charged $1 1,732,764 of salaries and wages to NSF
grants during FY 2007. This population excluded (a) any employee with total salary
costs of $100 or less, and (b) all salary charges for undergraduate students. These
amounts were excluded because of their small dollar value and the difficulty in locating
undergraduate students for personal interviews.

       We interviewed key University officials and reviewed the organization structure
and written policies and procedures to assess the "attitude" or "tone at the top" toward
grants management and compliance in general as it affects effort reporting.

        We compared ASU's policies and procedures to Federal and NSF requirements
for allocating labor costs to Federal awards and interviewed ASU personnel to gain an
understanding of the controls in place to ensure salaries and wages charged to NSF
awasds were reasonable and allowable. For the 30 statistically selected en~ployees,we
obtained the following documentation to determine whether labor costs ASU charged
NSF awards met the control objectives:

           ADRs documenting 100 percent of each employee's work activities allocated
           to sponsored and non-sponsored projects for each reporting period.

           Appointment letters or other documents supporting the approved annual base
           salary for employees.

           Human Resource Management System reports detailing the actual salaries and
           wages charged to sponsored projects and other activities for each employee
           during each reporting period.

           Award documents to determine whether the grant had any terms and
           conditions that would affect allowable labor charges to the award.

        To ensure that salary and wage costs charged to NSF awards were incurred and
benefited NSF awards, we corroborated the information on the ADR reports by
interviewing the 30 sampled employees. We inquired whether (a) the labor charges
documented were actually incurred on projects and activities, (b) the approximate
percentage of effort actually worked on each sponsored project and/or activity was
reasonably consistent with NSF labor charges, and (c) the type of work performed on
NSF projects was generally consistent with the scope of the awards. We also interviewed
selected administrative grants managers in academic departments to determine
procedures for processing and monitoring employee salary charges to Federal grants.
Additionally, we interviewed selected PIS to determine the number of projects and
personnel they were responsible for and their processes for verifying work performance
prior to approving and signing ADR effort reports.

       To confirm that faculty effort pledged in grant proposals was actually contributed




worked on during FY 2007 to determine the effort pledgedbn each project andcompared
this proposed effort to the approximate percentage of actual effort worked on the project.
In addition, we determined whether and how ASU tracked and documented PI effort on
sponsored projects when no faculty salary support was requested or reimbursed by the
Federal Government.

        To determine whether labor costs were accurately recorded and charged to NSF,
we compared the amounts in appointment letters or other documentation supporting
salaries and wages paid to the amounts recorded in the Human Resource Management
System for each individual in our selected sample. We recalculated salary and wage
costs charged to NSF projects by using the salary shown on supporting documentation
and apportioning it by the period of time and percent of effort represented on the ADRs.
 We also reviewed labor transactions to determine whether ASU followed Federal, NSF,
 and University requirements on charging labor costs to NSF projects.

        We determined whether ASU officials certified effort reports in a tilllely manner,
by comparing the date the ADR was distributed to the academic departments to the date
the reports were certified. Timeliness was based on ASU's internal policy requiring
ADRs to be certified and returned to ORSPA within 15 working days of receipt from
ORSPA. As required by ASU's policy, we determined whether the effort reports were
properly certified by the employee, the project PI, or a responsible official with "suitable
means of verification" that labor effort shown on ADRs was a reasonable representation
of the work performed.

        Finally, we reviewed prior audit reports on ASU's Federal grants management
program perfomled by the University's intemal auditors and the OMB Circular A-133
auditors to determine whether there were any audit findings and reconlnlendations on
labor effort reporting. Specifically, we interviewed cognizant Internal Audit staff and
reviewed the working papers, as needed, to gain an understanding of the scope and
procedures used in any audits of ASU's payroll distribution reporting system andlor
University management of labor costs charged to Federal projects. We also met with
ASU's iildepeildent auditors who performed the OMB Circular A-133 audit1 to discuss
their overall audit scope and procedures used for reviewing salaries and wages charged to
Federal awards and their review of the labor effort reporting system. We reviewed the
most current A-133 audit working papers available during our site visit to ascertain the
actual audit scope and proceduses used in order to (i) preclude any duplicative audit work
and (ii) detelmine the specific audit procedures performed on the labor effort reporting
system.

        Onsite review work at ASU was pel-fonned for 2-week periods during February
and April 2008. The remainder of the audit work was completed through phone
interviews, emails, and documentation requests through May 2009. We were engaged to
perfolm the above audit objectives by the NSF-OIG. We conducted this perfolmance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perfonn the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




OMB Circular A-133 is entitled A~tdiisof Stoles. Local Governlnents, and A'on-Projit O,boa,,likatiolls

                                                                 4
  FINDINGS AND RECOMMENDATIONS

  1. Internal Controls Over the Effort Reporting System Need Improvement

  Federal Requisements for Labor Effort Reporting

           OMB Circular A-2 1, Cost P~*irzciplesfor Educatiorzal Irzstitutiorzs, requires
  certification of labor effoi-t contributed by employees on Federal awards to reasonably
  reflect the actual labor effort contributed by the employee to meet the objectives of the
  award. The effort reporting system must provide for an after-the-fact confirmation of
  employee activity by the employee conducting the work being reported or by an official
 that is in a position to know whether the work was performed. Although Federal
 requirements do not specify when a labor effort report should be completed, university
 officials should provide the after-the-fact confirmation as close to the end of the reporting
 peiiod as possible to help ensure its reliability. ASU required ADRs to be certified and
 returned within 15 working days of receipt from ORSPA. The Circular also requires
 universities to provide for independent intemal evaluations to ensure the effort reporting
 system effectively complies with Federal standards. As sucl~,"the recipient institution is
 responsible for ensuring that costs charged to a sponsored agreement are allowable,
 allocable, and reasoilable under these cost principles" and "must provide for adequate
 documelltation to support costs charged to sponsored ag.reeme~lts."~

        Consistent with the OMB Circular A-21 requirement for "sound business
 lnanagement practices," OMB Circular A- 110, Urzifornz Adnzirzist~*ative    Requirer~zentsfor
 Grants and Agr-eer~zerztsivitlz Izstitutions of Higlzer Education, Hospitals, and Other Non-
 Profit Or~ganizatiorz,requires entities receiving Federal awards to establish and maintain
 internal controls that are designed to reasonably ensure corllpliance with Federal laws,
 regulations, and program compliance.

        However, ASU did not establish adequate internal controls over the effort
reporting system. Specifically, ADRs were not certified withn the established
turnxound period, by individuals with either a first hand knowledge of the work
perfo~medor using a suitable means to verify the work performed. In addition, ASU did
not ensure that salaries and wages charged to the NSF directly benefited its grants and
were coirectly charged to NSF grants. Although our review of 67 ADRs for the 30
sanlpled employees determined that the reposts generally suppoi-ted the FY 2007 salaries
of $640,841 charged to NSF grants, we found:

                 Fifty ADRs were either certified after the University's established 15
                 working day turnaround period or the certification date could not be
                 dete~mined. Specifically, 48 ADRs were certified after the turnaround
                 period, one was not dated and one was missing. Thus $437,155 or 68


  Paragrapl~sC.4.d.(l) and A.2.e., respectively, of OMB Circular A-21, Cost Pri~iciplesfor Educatio~ial
I~zstitutiorzs.
                  percent of the total salaries and wages tested were either certified late or
                  the certification date could not be determined.

                  Four ASU officials, who did not have first hand knowledge of the work
                  perfomled, certified six ADRs for five employees without obtaining
                  documentation demonstrating the reasonableness of the reported work
                  performed. The ADRs represented $41,229 of the total salaries and wages
                  tested.

                 Four employees charged $16,883 in salaries tested and $8,189 in the
                 related h n g e benefits and overhead (overhead) costs to NSF, even though
                 there was no direct benefit to the NSF grants. Specifically, two enlployees
                 prepared grant proposals and charged their time for this administrative
                 activity to the grants, one employee charged his time for work not
                 performed on the grant, and one employee charged her entire two-week
                 vacation time to a grant even though the enlployee only worked four
                 percent of her time on that grant.

                 Three employees did not have appointment letters or employment
                 contracts that docunlellt an employee's annual base salary used for
                 allocating salary charges to sponsored projects and other activities. Thus,
                 ASU could not adequately support $32,791 in salaries and wages charged
                 to NSF.

                 Two employee's salaries and wages were allocated to NSF using higher
                 annual base salaries than authorized on appointment letters or employment
                 contracts. This resulted, in an overcharge to NSF of $3,130 in salaries and
                 $1,497 in overhead.

        In addition, contrary to OMB Circular A-21, the University had not perfolmed a
comprehensive independent internal evaluation of its payroll distribution and effort
reporting system to ensure the systeln complied with Federal requirements and was
effective.

ASU's Effort Reporting Systein

        Pursuant to the OMB requirenlents, ASU has implemented an ADR system to
document the after-the-fact certification of the reasonableness of employee's salaries and
wages charged directly to sponsored projects and other activities. The number of ADR
reporting periods in a year is primarily based on the type of employee.3 The University
had a policy requiling academic departments to certify and return ADRs within 15


 For academic staff there are 4 ADR reporting periods: July 1 tluu August 15; August 16 tlm December
31; January 1 thru May 15; and May 16 thlu June 30. For fiscal enlployees there are 2 ADR reporting
periods: July 1 thru December 3 1 and January 1 tlm June 30. For noa-exempt employees there are 12
monthly ADR reporting periods.

                                                 G
 working days of receipt fiom OR SPA.^ However, the University's policy did not define
 the number of days from the end of the effort reporting period that ADRs inust be
 distributed to the academic departments. When the academic departments receive the
 ADRs fioin ORSPA, cognizant departmental officials (ADR Coordinators) distribute the
 repoits to employees to review for accuracy and to make any necessary corrections. The
 ADRs are certified, dated and returned to the ADR Coordinator who makes a copy of
 each repoi-t and forwards the original ceitified reports to ORSPA.

 Many ADRs Did Not Meet the University's 15-Working Dav Turnaround Period

          The audit disclosed that 50 of 67 ADRs, representing $437,155 (68 percent) of the
 total NSF labor charges reviewed, were either certified after the U~liversity'smandated
  15 day turnaround period or the certification date could not be deteimined. Specifically,
 48 ADRs were certified late and for 2 certification dates could not be detemlined. The
 number of days late ranged fiom 1 to 553 days beyond the Universities mandated 15 day
 turnaround period. The following table summa~izesthe number of days beyond the ASU
 certification period that officials took to review and approve their ADRs.

    NUMBER OF DAYS LATE BEYOND CERTIFICATION PERIOD BASED ON SIGNATURE DATE
                                         % of Late                  % Late
            Days Late                  # ADRs           ADRs         Total Salaries       Salaries
              1 to 50                   41               62 %        $     353,870          55 %
             51 to 100                   4               6 %                23,979          4 %
          '101 to 180                    2               3' %               40,947          6 %
               553                       1               1 %                12,917          2 %
 Not Certified Timely                   48              72 %               431,713         67 %
 Timeliness not determinable             2               3 %                 6,914          1 %
 Subtotal                               50              75 %               438,627         68 %
 ADRs Certified On-Time                 17              25 %               202,214         32 %
 Total                                  67              100%         %     640.841         100°/n


        Typically, PIS do not establish and keep records of employee's labor effort on
grants and other activities because Federal cost principles do not require this record
keeping. Therefore, the longer it takes to certify ADRs, the less reliable ADRs may
become because PIS generally rely on their memory when approving ADRs for
tl~einselvesand the individuals that work for them. Further PI's may have multiple
awards and many enlployees worlung for them, which increases the risk that the PI's
menlory of the anlount and type of activities each employee performed will be less
accurate over time. For exanlple, one PI had seven ongoing research projects and was
responsible for overseeing 1 post doctoral candidate and 7 graduate students. Thus,
providing an after-the-fact confirmation as close to the end ofathe effort reporting period


  ASU also had a contradictory policy on its certification period requiring ADRs to be certified and
retunled to ORSPA within 15 working days from the end of the effort reporting period. We did not to use
this policy because iu most instances, ADRs would be late by the time the departments received then1 from
ORSPA.
 as possible helps to ensure the reliability of the effort reporting system. With the culrent
 reporting system, PIS may have to remember more than 8 months5 of activity to confirm
 ADRs. Since the University does not specify the number of days from the end of the
 effort reporting period that ADRs must be distributed to the academic departments the
 recall period could be even longer.

 Administrative Officials Did Not Have a Suitable Means to Certify ADRs

          In addition, administrative personnel certified ADRs even though they did not
 have a suitable means for validating the work performed. For example, four ASU
 officials certified six ADRs for five employees even though they did not have first hand
 knowledge of the work performed and they did not obtain documentation demonstrating
 the reasonableness of the salary charged to NSF. The ADRs represented $41,229 of the
 total NSF salaries tested. Specifically, three department administrative officials
 incorrectly certified five ADRs for four employees while an unidentified individual who
 was not the employee conducting the work being reported or the PI, improperly certified
 one ADR for an employee. ASU had no documentation in their grant files to demonstrate
 that a suitable means of verification was obtained for any of the six ADRs that were
 certified.

 Salary Charges Must Directly Benefit NSF Grants

        Ad~izilzistr~ative
                         Tinze Charged Directly to Sponsored Projects. OMB Circular
A-21 and University policy clearly established that only employee activities directly
benefiting Federally-sponsored projects are allowed to be charged to such sponsored
projects. However, two of nine PIS charged NSF $7,159 in salaries and $3,264 in the
related overhead costs for their administrative time that did not directly benefit any NSF
grant. Specifically, one PI stated that he spent 37.5 percent of his summer effort in
preparing grant proposals while the other PI stated that he spent 10 percent of his summer
effort in preparing grant proposals. See Appendix A for further details on questioned
costs.

        NSF Clzal*gedFor Wor.k Not Perfonlized orz Grarzt. A PI stated that he did not
work on any NSF grants during the summer 2007 period. However, the May 16 through
June 30, 2007 ADR indicated he charged 40 percent of his time to an NSF grant,
representing $3,926 in salaries and $1,789 in the related overhead costs. The PI did not
recall why he certified the ADR, but believed a mistake was made on this grant. See
Appendix A for further details on questioned costs.

        Vacatiorz Tir~zeI~~zproperly
                                   Allocated to a Sporzsored PI-oject. Although an
employee worked only four percent of her time on an NSF award, ASU incorrectly
allocated the employee's entire two-week vacation pay to the NSF award. University
policy provides for an allocation of salary for vacation time to Federally sponsored

  For fiscal year exnployees, the amount of tiine PIS have to recall work activity can be inore than 8 nloilths
since the effort reporting period covers six months, distribution of the ADR can take up to 2 months and the
certification turnaround period is 15 working days (21 calendar days).
    projects based 011 the level of effort recorded on the employee's ADR. Therefore, ASU
    overcharged NSF $5,798 in salary for vacation time taken in August 2006 and $3,137 for
    the associated overhead costs. See Appendix A for hrther details on questioned costs.

    ASU Did Not Always Maintain Docun~entsto Support Employee's Annual Base Salary

             Although OMB Circular A-21 mandated that universities "must provide for
     adequate documentation to support costs charged to sponsored agreement^,"^ 3 of the 30
     enlployees tested did not have adequate documentation to support their annual base salary
    used in allocating labor charges to NSF and other Federally sponsored projects and
    activities. For the three enlployees without appointment letters or similar documentation,
    ASU charged NSF $32,791 of the total FY 2007 salaries tested. While the annual salary
    amounts used to compute the NSF salary charges did not appear to be excessive when
    compared to others in similar positions, the docunlentatioil of each employee's salary rate
    is essential because ASU does not have standard pay scales. They have several rates for
    employees pay based on academic title, number of years in the position, and the
    individual's pay rate negotiated at the time of hire.

            The following table provides additional infornlation on the three employees
    without an appointment letter or similar documentation to support their annual base
    salaries.

                             ANNUAL BASE SALARY WITH NO SUPPORTING
                                             DOCURlIENTATION
                                                             Salary Charged
                          Position                               to NSF
                          Facultv Member                     R       1 5 951
                                                                    ~p      -


                          Post Doctorate                             14,292
                          Other Non-P~.ofessional                     2.548

                          Total                                         $         32,791

Salary Charged to NSF in Excess of Employee's Annual Base Salary

       Further, the audit disclosed that for 2 of the 30 employees tested, ASU
overcllarged NSF $3,130 in salaries and $1,497 in the related overhead costs because
ASU used employee annual base salaries that were higher than supported in the official
records when allocating salaries to Federal awards. See Appendix A for further details
on questioned costs.

Con~prehensiveIndependent Evaluation of the Effort Reporting System Not Conducted

        Finally, ASU did not meet the OMB Circular A-21 requirement for universities to
conduct a periodic independent internal evaluation of its payroll distribution and effort
reporting system to ensure the system meets Federal requirements and is effective. We
reviewed two recent audits that covered the University's payroll distribution and effort

6
    Paragraph A.2.e of OMB Circular A-21, Cost Priizciyles for Educatioizal Ii7stitutioizs.

                                                        9
reporting system, however, neither audit was a comprehensive systemic review of its
effort reporting system. Although ASU has an audit conducted in accordance with OMB
Circular A-133 (“A-133”) annually,7 the A-133 audits were not designed nor intended to
be a comprehensive evaluation of the payroll distribution and effort reporting system.
For example, the A-133 audit we reviewed had procedures to test selected ADRs to
ensure they were certified and the auditors recalculated the percent of pay per the ADR to
the total recorded in the payroll system. However, the A-133 auditors did not interview
employees to corroborate the information on the ADR. The A-133 auditors likely would
have identified employees incorrectly charging their administrative time spent on
preparing grant proposals directly to sponsored projects, if they conducted employee
interviews. In addition, the A-133 auditors did not ensure that at least some faculty effort
(paid or unpaid by the Federal Government) was committed to a sponsored project or that
an estimated amount of faculty effort was computed by the University and included in the
organized research base. Also, we concluded that although the University’s Audit and
Advisory Services (Internal Audit) is independent from the ORSPA, the audit they
conducted of the ASU payroll system did not meet the OMB requirement because the
audit was not a comprehensive review of the effort reporting system. Rather, the audit
focused on “extra” compensation paid to employees during fiscal year 2006. Therefore,
neither the A-133 audit or the University’s internal audits were a systemic evaluation of
the payroll distribution and effort reporting system.

Factors Contributing to Effort Reporting Weaknesses

        These weaknesses occurred because, prior to FY 2008, ASU officials did not
place sufficient emphasis on effort reporting. Specifically, the University had not:
developed adequate effort reporting policies and procedures; required training for
personnel involved in the effort reporting process; and, established proper monitoring and
oversight of the effort reporting system. After the University was informed of our audit,
the xxxxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxxx xxxxxx informed xxx Deans and other
University officials in a December 12, 2007 email that xx had become aware of a number
of systemic issues with the payroll distribution and effort reporting system that required
immediate attention and went on to name many of the same issues that we identified in
this report. The xxxxxxxxxxx stated his intent was to let the Schools and Colleges know
that xx considered compliance with the University’s policy and procedures on payroll
distribution and effort reporting as a priority and wanted everyone’s support on this issue.
Xxx felt this was necessary since xxx believed no one at xxx level had emphasized the
importance of effort reporting in the past.

        Lack of Adequate Effort Reporting Policies. ASU’s effort reporting policies and
procedures were inadequate or non-existent in the following areas: (1) defining an ADR
distribution period, (2) identifying senior management officials that would be held

7
 Under the Single Audit Act of 1984 (Public Law 98-502) as amended in 1996 (Public Law 104-156), non-
Federal entities that expend $500,000 or more a year in Federal awards are required to have an
organization-wide audit that includes the non-Federal entity’s financial statements and compliance with
Federal award requirements. The OMB Circular A-133 established uniform requirements among Federal
agencies for audits of State, Local Governments, and Non-Profit Organizations.

                                                  10
 accountable for the timely certifications of ADRs, (3) defining for administrative officials
 what types of docunlents demonstrate that a suitable means of verification was obtained
 in ensuing work was perfolined as represented on ADRs, (4) identifying employee's
 work activities that may be charged directly to Federally sponsored projects from those
 work activities that should not be charged directly to sponsored projects, and
 (5) conducting an independent intelnal evaluation of the payroll distribution and effol-t
 reporting system to ensure the systenl meets all Federal requirements and is effective.

                 University's Distribution Period. Although the University had a policy
requiring academic depiilhnents to certify and return ADRs within 15 working days of
 receipt from ORSPA, they did not specify the number of days from the end of the effort
reporting period that ADRs should be distributed to the academic departments. The
amount of time from the end of the effol-t reporting period to certify ADRs may vary
significantly between reporting periods because the University did not establish an ADR
distribution period. For example, in FY 2007, the distribution of ADRs to academic
departments varied from less than a month to almost five months. As we stated earlier in
the report, the longer it takes to certify ADRs the less reliable they may be because PIS
typically certify ADRs based on their memory. Therefore, to ensure ADRs are certified
and retuned to ORSPA as close to the end of the reporting period as possible, it is critical
to define a distribution period when ADRs should be sent to the academic departments.

                Timelv Certification of the ADR. ASU's policy did not designate senior
managenlent officials, such as Department Chairs, to be held accountable for the timely
completion of ADRs. Such senior officials (i.e. Department Chairs), who have the
responsibility for securing and retaining staff and faculty members and recommending
tenure and promotions, would have more leverage than department grant administrative
staff or ORSPA personnel in ensuring PIS review and certify ADRs within the
University's certification period.

         In July 2008, ASU ilnplenlented a new automated payroll distribution system to
 improvejts ADR process. The new system eliminates the need for paper ADRs, uses an
 automated routing system with electronic signatures and includes automated elnail
notifications. Once the ADRs are certified, they are routed back to ORSPA who is
responsible for maintaining the~nin the system. ASU officials believe the time period to
certify the reports should be shortened since the paper ADRs will no longer be required
to be physically distributed to the departments and retunled to ORSPA. Also, officials
noted that the new automated system should assist the University in monitoring ADRs for
timely colnpletion because the systenl will be more transparent for both the academic
department and the ORSPA staff. Therefore, timeliness issues should be more readily
identified for prompt resolution. ORSPA officials stated that 90 percent of the ADRs
issued under the new automated system were certified on time.

        While we agree that the automated system should help shorten the certification
process and should provide both department personnel and University staff with the
capability to monitor ADRs for timely completion, it is essential that ASU officials
establish formal monitoring procedures to institutionalize the process.
                Suitable Means of Verification. Although the University had a policy
requiring certifying officials without first hand knowledge of the work performed to
obtain a suitable means of verification, the University did not define or provide examples
of what constitutes suitable means. Our statistical sample identified several instances
where suitable means were not obtained. For example, three administrative personnel,
who certified ADRs without obtaining documentation, were confused over how to satisfy
the Federal requirement on obtaining a suitable means of verification.

               Billing Policies on Employee Work Activities. ASU policies did not
define the specific work activities by employee type that are included in the annual base
salaries and whether those activities could be charged directly to Federally sponsored
projects. This likely contributed to two PIS incorrectly charging their administrative time
on preparing grant proposals directly to NSF sponsored projects.

                Independent Internal Evaluations. ASU did not establish policies on
implementing a Federally mandated independent internal evaluation of the payroll
distribution and effort reporting system to ensure the system met Federal requirements
and was effective. ASU did not have a policy because they believed its annual A-133
audit met the OMB Circular A-21 requirement for an independent evaluation of its
payroll distribution system.

         Truining. The                                                         stated in
December 12,2007 email to the Deans and other University officials that it appears many
of our faculty do not understand the u ose of an ADR or how to properly Eimplete the
certification. Further,                          was concerned about a large number of
missing ADRs covering several fiscal years that may never had been certified and

salaries paid to faculty in personnel files. Due to these issues,    PP
returned to ORSPA and a lack of supporting documentation (i.e. a ointment letters for

supported having mandatory training in the new effort reporting system and said that the
University was working on this. We agree with the Vice President and would add that it
is essential that mandatory periodic h.aining for all personnel involved in effort reporting
be established, as we ident$ed many of the same issues that                         spoke of
in      email sent to Deans and other University officials. Periodic training would not
onlystress its commitment by University management of the importance f its effort
reporting process, but serve to ensure that new staff is trained as well as keeping all staff
involved with effort reporting apprised of any changes to the process.

         Lack of Monitoring and Oversight. Although ORSPA established an Outstanding
ADR List for follow-up with the academic departments, ORSPA did not consistently
ensure the list was kept current and sent to the departments for follow-up on the
outstanding ADRs. Further, department administrative officials did not monitor their
departments to ensure ADRs were completed within the University's established
certification period. In addition, department administrative officials did not provide
adequate oversight to ensure appointment letters or similar documents were maintained in
their files, kept current, and salary data fiom the appointment letters were accurately
recorded into the payroll distribution system.

ADR System May Produce Unreliable ADRs and Excess Labor Charges

       As a result, ASU provides limited assurance over the accuracy of ADRs tested.
More significantly, those control weaknesses could affect the remaining $11.7 million of
FY 2007 labor charges to NSF grants, as well as the $40.6 million salary portion of
ASU's other $180.9 million of Federal awards. Further, these weaknesses resulted in
$29,700 of overcharges to NSF for salaries and the associated overhead costs based on
our limited sample. Therefore, it is likely additional overcharges exist and will continue
without changes to the internal control structure.

Recommendations

       We recommend that the NSF Director of the Division of Grants and Agreements
and the Director of the Division of Institution and Award Support, coordinate wit11 the
cognizant audit agency, as needed, to implement the following recommendations:

1.1    Work with the ASU officials to establish an internal control structure that utilizes
       the capabilities of its new automated effort reporting system to ensure a payroll
       distribution and effort reporting system that reasonably reflects the actual effort
       employees devote on sponsored projects. At a minimum, ASU should take the
       following corrective actions:

      a.      Establish or revise University effort reporting policies and procedures to:

              i. Define a maximum number of days fiom the end of the effort reporting
                 period to distribute ADRs to the academic departments.

                  ASU's Response

                 ASU concurred with the recommendation. ASU will, along with
                 release of the electronic FY 2008 effort reports, define a specific date
                 at each certification period for release of effort reports. ASU will
                 strive to maintain a timefiarne of less than four months from the end of
                 the effort reporting period to distribution effort reports to the academic
                 depa~tnlents,which will result in a maximum of a six month period
                 from effort reporting period end date to certification deadline.

                 Auditors' Comments

                 The University met the intent of the recommendation. However, we
                 believe ASU should reconsider their position on taking up to six
                 months fiom the end of the effort reporting period to distribute and
                 certify ADRs. As pointed out in the report, the longer it takes to
     certify an ADR the less reliable they become because the cei-tifier
     relies on their memory of the work perfonned. A six month effort
     reporting period would require the certifier to remember up to one year
     of time spent on sponsored projects and other activities. In addition,
     the new automated payroll distribution systen~,implemented in July
     2008, should greatly reduce the time required to distribute and certify
     ADRs.

 ii. Require ORSPA to ensure the Outstanding ADR list is kept current
     and provided to the academic departments' senior management official
     responsible for the timely completion of ADRs.

     ASU's Response

     ASU concurred and has enacted this change. The ORSPA effort
     reporting team provides a weekly report of outstanding effort reports
     to Department Effort Administrators (DEA), college Dean's offices,
     the Office of the Vice President for Research and Economic Affairs
     (OWREA) and on a periodic basis ORSPA will provide the status of
     outstanding ADRs to the Department Chairs.

    Auditors' Comments

    ASU's response has met the intent of the recommendation.

iii. Require the departments to monitor ADRs to ensure they are
     completed within the University's established certification period.

    ASU's Response

    ASU concu~redand has enacted this change with the Effort Reporting
    system workflow. As certification periods progress, status reports are
    generated and updates are provided to DEA's, Department Chairs and
    Deans by ORSPA. This allows upper management's direct monitoring
    of percentage completion and certifications outstanding so depal-tment
    managers and faculty leadership can engage certifiers in meeting
    deadlines.

    Auditors' Comments

    ASU's response has met the intent of the recommendation.

iv. Assign and hold ASU senior management officials, such as
    Depastment Chairs, accountable for the certification of ADRs within
    the University's certification period.
     ASU's Response

     ASU concurred with this recommendation. The OVPREA maintains
     regular contact with Department Chairs regarding effort reporting
     cycles and outstanding matters. Specifically, Chairs are notified when
     each certification period begins and after certification periods close to
     inform them of any pending certifications. OVPREA enforces
     department, PI and employee accountability with sanctions for late
     certification. Award activations and modifications are not processed
     for any PI or the employee for whom effort report cel-tifications are
     outstanding on any of their projects.

     Auditors' Comments

     ASU's response has met the intent of the recommendation.

 v. Define what documentation suffices for a "suitable means of
    verification."

    ASU's Response

    ASU concurred and will require each employee to certify their ADRs.
    In the case of student workers and graduate students, the lead PI will
    certify their ADRs. Since an employee or PI may not be available to
    certify their ADRs, the University plans to define suitable means of
    verification in their policies to include written confirmations from the
    individual or physically verifiable infolmation (e.g. notebooks, sign in
    sheets). The policy will also define where additional information
    obtained to verify the effort should be stored ('project file).

    Auditors' Comments

    ASU's response has nlet the intent of the recolmendation.

vi. Define the typical. inshuctional, research and administrative work
    responsibilities included in the annual base salay for various types of
    ASU employees and which of those activities could be charged
    djl-ectly to Federal awards from those activities that should not be
    charged directly to Federal awards.

    ASU's Response

   ASU concu~redand will be lnodifylng and expanding their existing
   guidance on annual base salary to include definitions of typical
   instruction, research and administrative work responsibilities included
   in annual base salary for various types of ASU employees.
            Additionally, ASU will enhance other policy which references direct
            charging to include the delineation of activities that can and cannot be
            charged directly to Federal awards.

            Auditors' Comments

           ASU's response has met the intent of the recommendation.

      vii. Require an independent evaluation of the payroll distribution and
           effort reporting system to ensure the system is in compliance with
           Federal, NSF, and University standards and is effective. The policy
           should identify the specific office responsible for performing the
           evaluation and how often such an evaluation should be conducted.

           ASU's Response

           ASU concurred and this change has been enacted. The University's
           Audit and Advisory Services conducted a full review of ASU's effort
           reporting system in FY 2009 and will continue their review in
           FY 2010. Additionally, the University's Audit and Advisory Services
           will review the system every three years, or at more frequent intervals
           as circumstances require.

           Auditors' Comments

           ASU's response has met the intent of the recommendation.

b. Ensure departmental and human resource officials establish and maintain
   current appointment letters or similar documentation establishing an
   employee's annual base salary that is allocated to employee's Federal awards
   and other activities and ensure the data fi-om the appointment letters are
   co~rectlyentered into the payroll system.

   ASU's Response

   ASU concurred and will be requesting that departments provide the
   documentation of e~llployeepersonnel files to the Office of Human Resources
   (OHR), and also will co~nnlunicatethe importance of centrally housing the
   personnel files, in compliance with cument SPP 1101 - Personnel Records.
   Additionally, the OHR has an extensive project to put ASU central OHR
   paper files in order and will work over the remainder of FY 2010 with
   colleges and department to pull all 'essential' paper documentation together in
   either a single central file or a pair of files (OHR and College).
    Auditors' Comments

    ASU's response has met the intent of the recommendation.

c. Require periodic trairzirzg to all employees involved in the effort reporting
   process. Such training should include a thorough discussion of ADR
   certification responsibilities and requirements and the various types of
   employee work activities that could be charged directly to Federal awards
   fi-om those work activities that should not be charged directly to Federal
   awards.

    ASU's Response

   ASU concurred and has enacted this change. ASU is currently strengthening
   their training based on end user feedback. The University offers classrooln
    and online training. Both methods of training will discuss the roles and
   responsibilities of various personnel involved in effort reporting, what types
   of expenditures must be certified, and what the certification means. ASU will
   monitor the completion of the training via an online test. Furthelmore, ASU
   is working with college and departmental senior managenlent to define
   training requirements for faculty and methods to ensure participation.

   Auditors' Comments

   ASU's response has met the intent of the recommendation.

d. Resolve the $29,700 in total questioned salary costs and the associated
   overhead costs (see Appendix A) resulting fionl improper charges for
   employee activity not directly benefiting NSF grants and using employee's
   annual base salary rates greater than the rates supported by the employee's
   appointment letters when allocating salary charges to sponsored projects.

   ASU's Response

   ASU concurred and the $29,700 in total questioned costs will be removed
   fi-om the NSF grants to which they were charged.

  Auditors' Comments
  ASU's response has met the intent of the recommendation.
2. Additional Internal Control Weakness Needing Management Attention

       An OMB January 2001 Clarification ~ e m o r a n d u m ' provide that Federally-
funded research programs should have some level of committed faculty effort, paid or
unpaid by the Federal Government. Such committed faculty effort should not be
excluded from the organized research base by declaring it to be voluntary uncommitted
cost sharing. If a research sponsored project shows no faculty effort, paid or unpaid by




        However, ASU did not have the capability to track PI committed effort to the
actual effort performed on the grant. Although we did not find any PIS from our sample
without effort committed to a sponsored project (all sampled PIS had some level of
committed faculty e f f ~ r t ) the
                                , ~ lack of effective controls could result in overcharging
indirect costs to sponsored projects. This occurred because ASU did not have a policy to
implement and institutionalize the OMB requirement for the issue described above.
Without a university policy it is difficult to enforce compliance and consistency in the
application of the OMB requirement. Thus, ASU is operating at a higher risk that
indirect costs charged to NSF awards could result in overcharges.

Recommendations

       We recommend that the NSF Director of the Division of Grants and Agreements
and the Director of the Division of Institution and Award Support, coordinate with the
cognizant audit agency, as needed, to implement the following recommendations:

2.1.   Work with ASU officials to establish an internal control structure that provides
       for a payroll distribution system that reasonably reflects the actual effort
       employees devote on sponsored projects. At a minimum, ASU should take the
        following corrective actions:

       a.     Develop a policy, including a requirement to document the methodology,
              for computing an estimated amount of faculty effort that would go into the
              organized research base to ensure at least some faculty effort is committed
              to a sponsored project.

              ASU's Response

              ASU concurred and stated they are in the process of developing a
              methodology and documenting a procedure by which ASU will calculate
              any required addition to the base, where no PI effort is identified. ASU


 OMB Memorandum M-01-06, January 5, 2001, Clarijication of OMB A-21 Treatment of Voluntary
Uncommitted Cost Sharing and Tuition Remission.
 Our sample of 30 employees contained 9 PIS.
      also stated they will utilize a standard for rninimum effort required to be
      committed to a project as the guideline for calculating addition to the base.

     Auditors' Comments

     ASU's response has met the intent of the recommendation. When the
     proposed methodology has been properly documented and implemented,
     such action should fully address the audit recommendation.

b.   Record and track PI effort to ensure that either some faculty effort is
     committed to a sponsored project or an estimated amount of faculty effort
     goes into the organized research base.

     ASU's Response

     ASU concurred and they anticipate the launch of a new research
     administration system by early calendar year 201 1 which will allow ASU
     to track faculty effort committed to projects. ASU also stated that this
     action item has been incorporated into the iinplenlentation plan whch is
     currently in progress.

     Auditors' Comments

     ASU's response has met the intent of the recommendation. When the
     proposed system has been properly implemented, such action should fully
     address the audit recommendation.
                                                                                        Appendix A
                            Schedule of FY 2007 Questioned Costs

       Award Number                Salary Costs    Fringe Benefits      Indirect Costs    Total Costs



 No Direct Benefit to Grants

 Administrative costs:
           0301007             $       6,361 $           989        $       1,911 $            9,261



            Subtotal           $       7,159   $        1,113   $           2,151   $         10,423

Improper costs:
          0443087              $       3.926   $         610                1.179              5.715

Vacation costs:



Total no direct benefit:       $      16,883   $       3,016    $           5,174 $          25,072




Base Salary not Supported

Salary costs:
           0092530             $      2,899             450     $            871    $         4,220
           0615938                      23 1             92                   84                407

          Subtotal             $      3,130    $        543     $            955    $         4.627



Total Questioned Costs         $     20,013    $       3,558    $          6,129    $       29,700
                                                                                        Appendix B

      ARIZONASTATE                   OFFICE FOR RESEARCH AND
                                     S P O N S ~ ~PRO~ECTS
                                                   ED
                                                                 PO BOX 873503
                                                                 TEMP€,
                                                                      A Z 85287-3503
                                                                                       (480) 965-5479
                                                                                       FAX: (480) 965-2455
      UNIVERSITY                     AVMINISTRITION




July 23, 2009




Silver Spring, MD 20910

Subject: Response to the Draff Report on the Audit of Arlzona State University Effort Reporting
System




Arizona State University is pleased to provide our response to the findings and
recommendations contained in the drafl report on the Audit of Arizona State University Effort
Reporting System.
On behalf of the University, thank you for the tlme invested in this audit as well as the
professionalism and cooperative attitude you have
                              tance, please contact
                                    w


Best regards,
                    ASU's Comments to Draft Audit Report




                                       Arizona State University

                                            July 23, 2009

               ASU Responses t o Draft Report on Audit of Effort Reporting System



Recommendation 1.1

Work with the ASU officials t o establish an internal control structure that utilizes the capabilities
of its new automated effort reporting system t o ensure a payroll distribution and effort
reporting system that reasonably reflects the actual effort employees devote on sponsored
projects. A t a minimum, ASU should take the following corrective actions:

   a. Establish or revise University effort reporting policies and procedures t o :


          i.    Define a maximum number of days from the end of the effort reporting period t o
               distribute ADRs t o the academic departments.


               ASU Response: W e concur. Effective with t h e release of t h e electronic FY2008
               effort reports, ASU has defined a specific date at each certification period for
               release of effort reports t o Departmental Effort Administrators (DEA's) t o initiate
               the certification process. ASU will strive t o maintain a timeframe of less than
               four months from t h e end of the effort reporting period t o distribution of effort
               reports t o t h e academic departments, which will result in a maximum of a six
               month period from effort reporting period end date t o certification deadline.


               The release dates and certification windows are incorporated into the Effort
               Reporting Calendar and can be accessed via the Office for Research and
               Sponsored      Projects    Administration      Effort    Reporting     website     at
               http://researchadmin.asu.edu/effortreporting.


        ii.    Require ORSPA t o ensure the outstanding ADR list is kept current and provided t o
               the academic deparfments'senior management official responsible for the timely
               comple tion of A DRs.


               ASU Response: W e concur and ASU has enacted this change. The ORSPA effort
               reporting team provides a weekly report o f outstanding effort reports t o
               Department Effort Administrators, college Dean's offices, and the Office of t h e
        Vice President for Research and Economic Affairs (OVPREA). On a periodic basis,
        Department Chairs are contacted by ORSPA t o be updated on the status o f
        outstanding reports. We are currently working on an online report which will
        allow university employees and administrators t o query for outstanding reports
        for themselves and/or their departments. The online information will be
        updated nightly.     A system generated summary report will be disseminated
        weekly.


iii.    Require the departments t o monitor ADRs to ensure they are completed within
        the University's established certification period.


        ASU Response:       We concur. ASU has enacted this change with t h e Effort
        Reporting (ER) system workflow. ASU's new online effort reporting system has a
        workflow which requires review o f t h e effort report by the Department Effort
        Administrators both before and after t h e certification by t h e person with
        suitable means o f verification. The security o f t h e ER system requires t h a t a
        person other than t h e certifier act as Departmental Reviewer. This prohibits an
        individual from acting as both t h e Departmental Reviewer and the certifier o n an
        effort report.


       Any unresponsive Department Effort Administrators are reported t o senior
       management for resolution- whether t o encourage the DEA t o act or t o reassign
       another individual t o this role immediately. Since inception o f t h e n e w online
       system, this process has functioned effectively. Policy and/or procedure, as
       determined appropriate, will be updated t o state the role requirements and
       timeframe for action i n order t o clarify this role.


       At any point, DEA's can access t h e system t o check the status o f individual effort
       reportingforms and review their effort reporting work queue for forms awaiting
       processing. Additionally, Department Effort Administrators are prompted t o
       complete their reviews by ORSPA and OVPREA when effort reports are released,
       during the certification period, and after t h e deadline, as needed.


       As certification periods progress, status reports are generated and updates are
       provided t o DEA's, Department Chairs and Deans by ORSPA. This allows upper
       management's direct monitoring o f percentage completion and certifications
       outstanding so department managers and faculty leadership can engage
       certifiers in meeting deadlines.
       Once a certification window has closed, a "hold list" is created weekly and
       distributed t o   stakeholders,    including upper      management,   to    promote
       completion of certifications and achievement o f full compliance. While
       delinquent certifications are pending sanctions (as described below) are
       imposed on faculty.


iv.    Assign a n d hold ASU senior management officials, such as Department Chairs,
       accountable for the certification of ADRs within the University's established
       certifcation period.


       ASU Response: We concur, This has been enacted with the launch o f our new
       effort reporting system. When t h e system was launched, the Office of the Vice
       President for Research and Economic Affairs (OVPREA) sent three sets o f
       correspondence during the first effort cycle informing faculty and Chairs o f the
       release. For the largest departments a t the university, senior management met
      i n person with each department t o demonstrate the system and emphasize t h e
      importance and purpose o f effort reporting.


      The OVPREA maintains regular contact with Department Chairs regarding effort
      reporting cycles and outstanding matters. Specifically, Chairs are notified when
      each certification period is launched and after certification periods close t o
      inform t h e m o f any pending certifications. OVPREA enforces department, PI and
      employee accountability with sanctions for late certification. Award activations
      and modifications are n o t processed for any PI o r the employee for whom effort
      report certifications are outstanding o n any o f their projects.


      Deans and Department Chairs are currently and will continue t o be notified
      weekly when their faculty are delinquent (or approaching delinquency) in the
      completion o f their effort reports and their assistance is sought t o ensure on-
      time completion. Since inception o f the new online system, the participation of
      senior management in the process has been very effective in achieving
      certification compliance. Policy and/or procedure, as appropriate, will be
      updated t o more clearly state the responsibility o f senior management t o follow-
      up and resolve issues with pending certifications.


v.    Define what documentation suffices for a "suitable means of verification."
       ASU Response:       We concur. The control over the determination o f suitable
       means o f verification has been enacted via our ER system workflow process.
       Default settings for each employee type determine who can certify. Each
       employee self-certifies, except in t h e case o f student workers and graduate
       students, who are certified by the lead Principal Investigator on the project.


       Proxy certifiers can only be assigned by the ORSPA Effort Reporting team. Proxy
       is only granted for employees who have been terminated, who are on medical
       leave, who have granted authority t o another individual who has a direct project
       role, or another like circumstance.


       These proxy situations are discussed in our training programs, and we are adding
       the definitions t o our policy and proxy protocol. These documents will reflect
       that suitable means of verification include but are n o t limited t o written
       confirmation from the individual,          physically   verifiable   information (e.g.
       notebooks, sign in sheets), or based on first hand observation o f the individual.
      The procedures will also define in writing when the proxy situations are
      allowable, who is an acceptable proxy, and where additional information
      obtained t o verify the effort should be stored (project file). This information will
      also be available on our website.



vi.   Define the typical instructional, research and administrative work responsibilities
      included i n the annual base salary for various types of ASU employees and which
      of those activities could be charged directly t o Federal awards from those
      activities that should n o t be charged directly to Federal awards.


      ASU Response: We concur. ASU policies provide guidance as t o what is and is
      not included i n lnstitutional Base Salary. This information is specifically referred
      t o in our Research and Sponsored Projects policy RSP 502-03 Certification o f
      Sponsored Project Effort, as well as supported by the concepts presented in t h e
      Academic Affairs policy ACD 510-04 Intra-University Consulting. The t e r m
      lnstitutional Base Salary is further defined i n t h e ACD policy glossary.


      To further clarify this concept, we will be modifying and expanding our existing
      guidance on lnstitutional Base Salary t o include definitions o f typical instruction,
      research and administrative work responsibilities included i n lnstitutional Base
      Salary for various types of ASU employees. We will enhance other ASU policy
            which references direct charging t o include the delineation o f activities that can
            and cannot be charged directly t o Federal awards.



    vii.   Require an independent evaluation of the payroll distribution and effort reporting
           system t o ensure the system is i n compliance with Federal, NSF, and University
           standards a n d is effective, 73e policy should identify the specific office
           responsible for performing the evaluation and h o w often such an evaluation
           should be conducted.


           ASU Response: We concur. This change has been enacted, as ASU has engaged
           the internal audit team from t h e ASU OHice o f t h e General Counsel i n evaluation
           o f the system and procedures. This team, called the University Audit and
           Advisory Services, conducted a full review of ASU's effort reporting system
           during FY2009, utilizing resources such as federal effort reporting audits.
           University Audit and Advisory Services has indicated that they will continue their
           review o f t h e effort reporting system during their next review, t o be conducted
           i n FY2010. ASU's University Audit and Advisory Services have incorporated t h e
           Effort Reporting System into its scope, and will review the system every three
           years, or a t more frequent intervals as circumstances require.


b. Ensure departmental and human resource officials establish and maintain current
   appointment letters or similar documentation establishing an employee's annual base
  salary that is allocated t o employee's Federal awards and other activities a n d ensure the
   data from the appointment letters are correctly entered into the payroll system.


  ASU Response: We concur. ASU will be requesting that departments provide the
   documentation o f employee personnel files t o t h e OHice o f Human Resources, and also
  will communicate t h e importance o f centrally housing the personnel files, in compliance
  with current SPP 1101- Personnel Records.


  Office o f Human Resources (OHR) has an extensive project t o put ASU central OHR
  paper files in order and will work over t h e remainder o f N 2 0 1 0 with colleges and
  department t o pull all 'essential' paper documentation together i n either a single central
  file or a pair o f files (OHR and College). The electronic documentation project is
  dependent on a variety o f transactions being fully automated, but should be in place by
  t h e end o f FY2011.
      ASU will be establishing a comprehensive set of policies and procedures for monitoring
      and verifying payroll expenses. The following guidance and tools have been put in place
      in fiscal year 2009 t o assist departments in monitoring and reviewing their payroll
      expenses.
              Policy FIN 203   - Org Manager Responsibilities:   Describes the accountability for
              departments t o ensure their payroll expenses are accurate in accordance with
              their respective budgets.
                                  -
              Policy SPP 405-02 Overpayment: Addresses the process t o follow i n the event
              an overpayment has been determined.
              MyReports   - HR   Expenditures: Reporting o f departmental payroll expenses in
              relation t o their budget.
              Business Process Guide: Assists in reconciling Payroll Expenses.

      Additional business processes will b e p u t i n place in FY2OlO t o ensure appropriate
      management approval is documented for all payroll expenses.

      University Audit and Advisory Services will b e auditing this function in FY2010 t o ensure
     that planned improvements are implemented and compliance is enhanced.


c.   Require periodic training to all employees involved i n the effort reporting process. Such
     training should include a thorough discussion of the A DR cerCifcation responsibilities and
     requirements a n d the various types of employee work activities that could be charged
     directly t o Federal awards from those work activities that should n o t b e charged directly
     to Federal awards.


     ASU Response: We concur. We have enacted this change and are currently
     strengthening our training based o n end user feedback. We offer classroom training t o
     Department Effort Administrators each effort cycle     - including beginner   and refresher
     course- and notify the DEA population o f t h e next training opportunities each cycle via
     email.   We have tracked attendance of the DEA sessions and are confident that the
     active population o f DEAs has received training. Additionally, DEAs are very interactive
     with t h e ORSPA effort team and frequently utilize our help resources t o obtain guidance
     and assistance.


     W e offer online training for the faculty, in addition t o providing in-person training upon
     request. When t h e new system was launched,              senior management attended
     departmental meetings for the departments with the most research activity t o explain
        the requirements and policies related t o effort reporting as well as to demonstrate the
        system usage and the importance placed on compliance. We will continue to monitor
        the completion of the training via an online test and are working with college and
        departmental senior management to define training requirements for faculty and
        methods to ensure participation.


        We also offer online resources for learning such as FA&, policy guidance, in addition to
        a help desk email which is monitored constantly and is devoted exclusively t o effort
        reporting issues. Our online training, as well as in person training, discusses what the
        roles and responsibilities of effort reporting are for each system role, what types of
        expenditures must be certified, and what the certification means.


    d. Resolve the $29,700 in total questioned salary costs and the associated overhead costs
        (see Appendix A) resulting from improper charges for employee activity not directly
       benefiting NSF grants and using employee's annual base salary rates greater than the
       rates supported by the employee's appointment letters when allocating salary charges
       to sponsored projects.


       ASU Response: We concur. The $29,700 in total questioned costs will be removed from
       the NSF grants to which they were charged.



Recommendation 2.1

Work with the ASU officials to establish an internal control structure that provides for a payroll
distribution system that reasonably reflects the actual effort employees devote on sponsored
projects. A t a minimum, ASUshould take the following corrective actions:

   a. Develop a policy, includinga requirement t o document the methodology, for computing
       an estimated amount of faculty effort that would go into the organized research base t o
       ensure at least some faculty effort is committed to a sponsored project.


       ASU Response: We concur. ASU is in the process of developing a methodology and
       documenting a procedure by which we will calculate any required addition to the base,
       where no PI effort is identified. We will utilize a standard for minimum effort required to
       be committed t o a project as the guideline for calculating addition t o the base.
b. Record and track PI effort to ensure that either some faculty effort is committed t o a
   sponsored project or an estimated amount of faculty effort goes, into the organized
   research base.


   ASU Response: We concur. We anticipate the launch of a new research administration
   system late in calendar year 2010 or early in calendar year 2011 which will allow us t o
   track faculty effort committed t o projects. From this system we will be able t o provide
   researchers with information on deviations between proposed and actual effort
   throughout the course of the projects, These action items have been incorporated into
  the implementation plan which is currently in progress.


   Reductions from proposed PI effort of less 25% are allowable per expanded authorities
   delegated t o ASU. Any reductions in excess of this amount will be investigated and
  accounted for appropriately as direct charge, cost share, or for negotiation with
  sponsors on reduction o f PI effort.
